<html>
<title> - ASSURING THE FREEDOM OF AMERICANS ON THE HIGH SEAS: THE UNITED STATES RESPONSE TO PIRACY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   ASSURING THE FREEDOM OF AMERICANS
                  ON THE HIGH SEAS: THE UNITED STATES
                           RESPONSE TO PIRACY

=======================================================================

                                (112-17)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
65-479                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3057405f705345434458555c401e535f5d1e">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
TOM REED, New York                   MICHAEL E. CAPUANO, Massachusetts
ANDY HARRIS, Maryland                TIMOTHY H. BISHOP, New York
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    RUSS CARNAHAN, Missouri
FRANK C. GUINTA, New Hampshire       GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           MAZIE K. HIRONO, Hawaii
CHIP CRAVAACK, Minnesota             JASON ALTMIRE, Pennsylvania
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               HEATH SHULER, North Carolina
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           DONNA F. EDWARDS, Maryland
STEPHEN LEE FINCHER, Tennessee
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma

                                  (ii)

  
?

        Subcommittee on Coast Guard and Maritime Transportation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
ANDY HARRIS, Maryland                CORRINE BROWN, Florida
FRANK C. GUINTA, New Hampshire       TIMOTHY H. BISHOP, New York
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              MICHAEL H. MICHAUD, Maine
JEFFREY M. LANDRY, Louisiana,        NICK J. RAHALL II, West Virginia
  Vice Chair                           (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Amend, Kurt, Principal Deputy Assistant Secretary of State for 
  Political and Military Affairs, U.S. Department of State.......     5
Caldwell, Stephen L., Director, Maritime Security and Coast Guard 
  Issues, U.S. Government Accountability Office, accompanied by 
  Pendleton, John H., Director, Defense Capabilities and 
  Management, U.S. Government Accountability Office \1\..........     5
Cook, Admiral Kevin S., Director of Prevention Policy for Marine 
  Safety, Security, and Stewardship, U.S. Coast Guard............     5
Wechsler, William F., Deputy Assistant Secretary of Defense for 
  Counternarcotics and Global Threats, U.S. Department of Defense     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

LoBiondo, Hon. Frank A., of New Jersey...........................    24

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Amend, Kurt......................................................    26
Caldwell, Stephen L., and Pendleton, John H......................    49
Cook, Admiral Kevin S............................................    74
Wechsler, William F..............................................    79

                       SUBMISSIONS FOR THE RECORD

Amend, Kurt, Principal Deputy Assistant Secretary of State for 
  Political and Military Affairs, U.S. Department of State, 
  responses to questions from Hon. Rick Larsen, a Representative 
  in Congress from the State of Washington.......................    35

----------
\1\ Mr. Pendleton did not provide verbal testimony during the 
  hearing.

  [GRAPHIC] [TIFF OMITTED] T5479.001
  
  [GRAPHIC] [TIFF OMITTED] T5479.002
  
  [GRAPHIC] [TIFF OMITTED] T5479.003
  
  [GRAPHIC] [TIFF OMITTED] T5479.004
  
  [GRAPHIC] [TIFF OMITTED] T5479.005
  
  [GRAPHIC] [TIFF OMITTED] T5479.006
  
  [GRAPHIC] [TIFF OMITTED] T5479.007
  
  [GRAPHIC] [TIFF OMITTED] T5479.008
  
  [GRAPHIC] [TIFF OMITTED] T5479.009
  
  [GRAPHIC] [TIFF OMITTED] T5479.010
  
  [GRAPHIC] [TIFF OMITTED] T5479.011
  
  [GRAPHIC] [TIFF OMITTED] T5479.012
  


                        ASSURING THE FREEDOM OF
                      AMERICANS ON THE HIGH SEAS:
                  THE UNITED STATES RESPONSE TO PIRACY

                              ----------                              


                        TUESDAY, MARCH 15, 2011

                  House of Representatives,
                    Subcommittee on Coast Guard and
                           Maritime Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo, (chairman of the subcommittee) presiding.
    Mr. LoBiondo. The committee will come to order. The 
subcommittee is meeting this morning to review efforts by the 
United States and the international community to respond to 
piracy on the high seas, and hopefully help prevent future 
attacks.
    Since the subcommittee's last hearing on this topic, Somali 
pirates have vastly expanded the range of their attacks on 
merchant vessels to encompass much of the western Indian Ocean. 
But even more alarming, the pirates have dramatically increased 
the number and viciousness of their attacks. This includes the 
recent hijacking of the U.S. sailing vessel, Quest, which ended 
in the ruthless murder of four United States citizens.
    I believe I speak for all of us who are on this 
subcommittee when I express my sincerest and deepest 
condolences to the families of the victims, and my outrage at 
this brutal violence against American citizens. As I said at 
our last hearing, piracy cannot be tolerated by the United 
States. I really think we need to re-emphasize that. We just 
cannot tolerate it. And the international community.
    This hearing provides us with a chance to examine ways to 
respond to that ongoing threat. Piracy has become a 
multimillion-dollar industry, as a result of ransoms that 
continue to be paid out by vessel ownership groups. I do not 
think we are tracking ransom payments to the extent that we 
should be.
    As a result, I am extremely concerned piracy could be 
benefitting the terrorist groups operating in Somalia, and that 
these groups could use their profits to carry out terrorist 
acts here, at home, and abroad. At the same time, I am worried 
the Federal Government may hold vessel owners criminally liable 
for ransoms they pay to free captive mariners.
    Many in the maritime community are looking at ways to 
enhance security of merchant vessels, including the placement 
of armed security personnel aboard ships. A vessel's crew has 
every right under U.S. and international law to defend 
themselves and their vessel. However, I do have some concerns 
about the guidance going out to these mariners, and hope to 
hear more about how we keep them informed of the latest 
avoidance and response measures.
    The United States has place Navy and Coast Guard assets in 
the region, and has partnered with other nations to protect 
vessels in the area. I applaud the services for taking action, 
but I am concerned about the effectiveness of these efforts. We 
know that several of the pirates captured by the naval forces 
of other countries are not being prosecuted. Instead, they are 
only returned to shore, where they are free to resume their 
illegal activity. I am interested in learning more about the 
procedures by which suspects are being prosecuted.
    Piracy is recognized internationally as a crime against all 
nations, and to which all nations must respond. It is incumbent 
on us to examine ways to minimize, if not end, this threat and 
its impact on both world commerce and our own national economy.
    I want to thank the witnesses for appearing here today, I 
look forward to their testimony. With that, I would like to 
yield to Mr. Larsen for any remarks he would like to make.
    Mr. Larsen. Thank you, Mr. Chairman, and thank you for 
calling today's hearing.
    Piracy, particularly off the Somalia coast, is a disruptive 
threat to world shipping.
    Tragically, just last month, piracy also became deadly for 
Jean and Scott Adam of Marina del Rey, California, and their 
friends, Phyllis Macay and Bob Riggle of Seattle, Washington. 
I, too, extend my sympathies to the families.
    These four individuals posed a threat to no one. They were 
not mariners involved in international trade. The Adams were 
living a lifelong dream. Ms. Macay and Mr. Riggle were friends 
joining in the adventure. While the circumstances of their 
deaths are still being investigated, we do know that they were 
killed by their Somali captors while their release was being 
negotiated. But for these pirates, these four U.S. citizens 
would be alive and well today.
    It is clear that today's pirate is no Jack Sparrow. 
Although piracy has been a threat to seafaring nations for 
thousands of years, the emergence of aggressive and persistent 
attacks off the Horn of Africa is especially concerning.
    The killing of these four hostages aboard the Quest 
certainly increased the attention of the international 
community on piracy, and the international community has 
increased its focus on piracy.
    The stats are startling. The New York Times reported in 
late February that more than 50 vessels were currently captive, 
ranging from Thai fishing trawlers to European tankers, super-
tankers, with more than 800 hostages. These hostages represent 
mariners and sea-farers that are only doing their jobs. Once 
captured, these hostages can be held in deplorable conditions 
for months before release.
    It is time for the international community to stop this 
injustice. The Gulf of Aden and the adjoining Indian Ocean 
constitute a critical shipping corridor. GAO's September 
report, about which we will hear more a little bit later, their 
report on piracy states that over 33,000 ships pass through the 
Gulf of Aden annually. This includes tanker ships moving 10 to 
15 percent of world petroleum shipments. For vessels headed 
west, the alternative route is around the tip of Africa, and 
adds 4,900 nautical miles to the transit.
    The rise of piracy in the region puts mariners in danger, 
and poses an economic burden on ocean carriers and shipping 
companies. In fact, according to a Chatham House report, 
insurance premiums in the London insurance market for traveling 
through the Gulf rose tenfold in 2008.
    Several factors have contributed to the frequency of these 
attacks: a large number of high-value targets passing through 
the Gulf; global proliferation of the small arms trade; and, 
most significantly, persistent civil violence, lawlessness, and 
economic dislocation in Somalia. Somalia does not have a 
functioning government. And with pirates having virtually an 
unlimited ability to operate from Somalia, piracy cannot be 
eliminated solely from the sea. So I am particularly interested 
to hear what the State Department witness will say on this 
subject.
    Last week, Bloomberg reported that China and Russia will be 
leading a new effort at the U.N. to curb the threat of piracy 
off the coast of Somalia, and defeat Al Qaeda-linked terrorists 
fighting to seize control of that nation. According to this 
report, Russia had circulated a draft resolution that would 
commit the U.N. Security Council to ``urgently begin talks on 
the creation of three courts for piracy cases.'' I would be 
interested to hear what the progress of this, and the 
likelihood of this resolution is.
    The international community has stepped up efforts to 
combat piracy. CTF 151, a multinational effort led by the U.S., 
the European Union operation, Atalanta, the NATO operation, 
which the U.S. also supports, and independent deployers are 
patrolling the area and providing greater protection to ships 
traveling through the Gulf. I would be interested to hear what 
our Department of Defense witness has to say about giving us an 
update on these efforts.
    And the International Maritime Bureau's piracy reporting 
center and MARAD have helped inform the maritime community 
about piracy and how to implement best practices for ships to 
evade and defend themselves from pirate attacks, and I look 
forward to the Coast Guard's comments on this effort.
    GAO's report from last September discusses several 
challenges, and I think describes a mixed bag of success. 
Prosecution of alleged pirates remains logistically difficult, 
although I note that on February 16th the pirate associated 
with the attack on the Maersk Alabama was sentenced to 33 years 
by a New York district judge.
    The pirates have greatly expanded their areas of attack to 
an area as large as the lower 48 States. There have been a 
steady increase in the number of attacks and the rate of 
success has declined. But the number of hostages being held is 
increasing, and the ransoms being paid are increasing.
    These issues raise important questions for our panel. Are 
the efforts of the U.S. and the international community 
succeeding, or are they failing? Are the rules of engagement 
changing, and do we need to change with it? In light of the 
recent killings, is transit in this area becoming more or less 
dangerous?
    When it come to piracy in the 21st century, there is no X 
that marks the spot to point us in the right direction. But 
there are several ways that U.S. policymakers can help combat 
piracy: encourage the international commercial maritime 
industry to adopt best practices; continue advances in the use 
of defensive technologies on ships; help coastal States in 
pirate-prone areas boost their coastal monitoring and 
interdiction capabilities; and provide resources to the Coast 
Guard and MARAD, so they can continue to advise the industry on 
how to strengthen its own security.
    With that, Mr. Chairman, I thank you again for holding this 
hearing, and I look forward to our witnesses.
    Mr. LoBiondo. Thank you, Mr. Larsen. Mr. Landry, do you 
have a statement?
    Mr. Landry. Thank you, Mr. Chairman. I will be brief. I 
thank you for calling this hearing, and our witnesses, for 
giving their time to testify.
    Article 1, section 8 of our Constitution clearly gives 
Congress the ability to define and punish piracy and felonies 
committed on the high seas, and offenses against the law of 
nations. And while piracy was a great concern to our founding 
fathers, many had thought this had been a bypass in history.
    However, we have not--seen a resurgence of piracies in ways 
not seen since the 19th century. Last year, piracy caused 
between $7 billion to $12 billion in damage to our world's 
economy. Shipping in the Suez Canal is down 10 percent, due to 
piracy concerns, an amount equal to the downturn in the canal's 
usage caused by the downturn in the world's economy.
    It appears this trend will continue in 2011. Already this 
year there have been 87 pirate attacks worldwide, including 61 
off the Horn of Africa, and Somalia pirates now hold 33 vessels 
and 711 hostages. As someone whose district is directly 
dependant upon international shipping, I am very concerned 
about this trend. Any reduction in international shipping 
commerce will ultimately impact the 28,000 men and women who 
work in my maritime district.
    As such, I look forward to your testimony, and working with 
you all to address these issues. Thank you. I yield back the 
balance of my time.
    Mr. LoBiondo. Thank you, Mr. Landry. Now we will move on to 
our witnesses today. Our witnesses include: Admiral Kevin Cook, 
director of prevention policy; Mr. William Wechsler, deputy 
assistant secretary of defense for counternarcotics and global 
threats; Mr. Kurt Amend, principal deputy assistant secretary 
of state for political and military affairs; and Mr. Stephen 
Caldwell, director of maritime safety and Coast Guard issues 
for GAO. I would like to welcome you all for being here today, 
and, Admiral Cook, I look forward to your testimony.

 TESTIMONY OF KEVIN S. COOK, DIRECTOR OF PREVENTION POLICY FOR 
  MARINE SAFETY, SECURITY, AND STEWARDSHIP, U.S. COAST GUARD; 
WILLIAM F. WECHSLER, DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR 
    COUNTERNARCOTICS AND GLOBAL THREATS, U.S. DEPARTMENT OF 
 DEFENSE; KURT AMEND, PRINCIPAL DEPUTY ASSISTANT SECRETARY OF 
 STATE FOR POLITICAL AND MILITARY AFFAIRS, U.S. DEPARTMENT OF 
STATE; AND STEPHEN L. CALDWELL, DIRECTOR, MARITIME SECURITY AND 
   COAST GUARD ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Admiral Cook. Well, good morning, Mr. Chairman, Ranking 
Member Larsen, and distinguished members of the subcommittee. 
With your permission, Mr. Chairman, I would like to have my 
written testimony entered into the record.
    Mr. LoBiondo. Yes, without objection.
    Admiral Cook. Thank you. I appreciate the opportunity to 
appear before you and discuss maritime piracy and the Coast 
Guard's role in addressing the threat to freedom of the seas, 
to the safety of shipping, and, most importantly, to the safety 
of mariners.
    We were all saddened by the death at the hands of pirates 
of four U.S. citizens on board the sailing vessel Quest. This 
underscores the importance for all mariners, recreational and 
commercial, to understand the risks associated with operating 
in areas where piracy is prevalent.
    The Coast Guard continues to be a leader in coordination 
with U.S. interagency and industry partners, with the 
International Maritime Organization, or IMO, and through the 
international contact group on piracy off the coast of Somalia, 
working to strengthen preventative measures from merchant 
ships, and to develop international regimes for prosecution of 
apprehended pirates.
    Although many nations have provided naval forces to the 
region to counter the piracy threat, it remains critical for 
individual vessels to take appropriate measures to reduce the 
vulnerability to attacks. The responsibility for combating 
maritime piracy is a shared one. Responsibility is shared among 
vessel owners and operators, governments, and the international 
community.
    Beyond coordination, the Coast Guard shares responsibility 
through our law enforcement detachment boarding teams, which 
operate at the request, and in support of, the U.S. central 
command's mission to deter, disrupt, and suppress piracy.
    Helping to share the responsibility with the industry, the 
Coast Guard continues to update its requirements for U.S. flag 
commercial ships to modify their security plans, plans which 
are required by the Maritime Transportation Security Act of 
2002. Vessel owners and operators are required to conduct a 
risk assessment for each vessel prior to entering high-risk 
waters, including the identification of counterpiracy measures. 
Plans must be submitted to the Coast Guard for approval under 
the commandant's authority in his maritime security directive, 
MARSEC 104.6.
    The ships most vulnerable to piracy, those with low 
freeboard and/or slow, include provisions for armed private 
security teams, among other measures. Beyond U.S. flag 
direction, the Coast Guard has a unique role to play 
internationally.
    The Coast Guard is co-chair, with the Maritime 
Administration, of working group three, dedicated to shipping 
self-awareness under the contact group on piracy off the coast 
of Somalia. The contact group was created on January 14, 2009, 
pursuant to the U.N. Security Council resolution 1851. This 
international forum brings together countries, organizations, 
and industry groups to coordinate political, military, and 
other efforts to bring an end to piracy, and to ensure that 
pirates are brought to justice. Nearly 600 countries and 
multiple international organizations participate in the contact 
group.
    Through working group three, the Coast Guard has 
facilitated the shipping industry's development of preventative 
measures to reduce vulnerability to attack, known as industry 
best management practices for vessels operating off the Horn of 
Africa region.
    And just recently, on February 28, 2011, the working group 
convened and chartered an effort to develop formal guidelines 
for armed security teams for adoption by other flag state 
administrations. The international shipping community is 
changing their position on armed security teams, and we welcome 
that change.
    Also internationally, by delegation from the State 
Department, the Coast Guard provides head of the United States 
delegation for international maritime organization meetings and 
activities. The IMO has passed resolutions establishing a 
framework for international cooperation, updated counterpiracy 
guidance, and promoted judicial mechanisms, so that pirates, 
once caught, face meaningful and just punishment under the rule 
of law. ``Piracy: Orchestrating the Response,'' will be the 
theme for IMO's focus this year.
    In closing, Mr. Chairman, I want to assure you that the 
Coast Guard is committed to fulfilling its statutory and 
regulatory responsibilities for the safety and security of U.S. 
merchant vessels and crews. We will remain engaged with the 
industry in implementation of counterpiracy measures identified 
in our MARSEC directive, as well as within the international 
maritime community, through our role at IMO and the contact 
group.
    The Coast Guard's oversight of the U.S. flag fleet is the 
international gold standard, and we will continue to make 
improvements wherever possible. We will also continue to use 
formal-notice-to-mariner warnings and all other communication 
channels to ensure recreational boaters are aware of piracy 
risks.
    Thank you for the opportunity to be here today, and I look 
forward to your questions.
    Mr. LoBiondo. Thank you, Admiral Cook.
    Mr. Wechsler?
    Mr. Wechsler. Thank you, Mr. Chairman, Representative 
Larsen, and other distinguished members of the subcommittee. I 
appreciate this opportunity to testify about the growing 
problem of piracy on the high seas. I have submitted a written 
statement for the record. I will briefly summarize that this 
morning.
    I would like to begin, as you all did, by expressing my 
sincere condolences to the friends and families of the four 
victims of the recent pirating of the sailing vessel, Quest: 
Jean and Scott Adam, Phyllis Macay, and Robert Riggle. 
Congressman Larsen, I understand that Ms. Macay and Mr. Riggle 
were from your State of Washington, as you noted. This tragedy 
stands as a stark reminder of what is at stake, as we continue 
to grapple with this complex challenge.
    Mr. Chairman, as you stated, we cannot just tolerate 
piracy. We also, as you stated, believe that freedom of 
navigation is critical to our national security and 
international commerce, and is a core principle of the law of 
the sea. Piracy endangers innocent mariners, disrupts commerce, 
causes economic damage, and perpetuates instability ashore.
    Disrupting piracy will continue to be a challenge for 
several reasons. First and foremost, the root causes of Somali 
piracy lie in the poverty and instability in that troubled 
country. Somalia simply lacks the criminal justice institutions 
necessary to deter piracy. Since January 2010, Somali pirates 
received as much as $85 million in the form of ransom payments. 
In a country where the per capital GDP is about $600, the 
prospect of these large ransoms has led to the development of a 
complex network of pirate facilitators and financiers. In the 
long run, the international community's ability to confront the 
Somalia-based piracy problem will be directly linked to 
Somalia's ability to provide effective governance.
    Secondly, the geographic area affected is vast. Today, 
Somali pirates operate in an area covering approximately 2.5 
million square nautical miles. Actually, larger than that in 
recent days. That is comparable, as a map that we provided, to 
the size of the continental United States, a vast area. The 
sheer size of this area makes it difficult for naval assets to 
reach the scene of a pirate attack quickly enough to make a 
difference. To adequately patrol such an area would require 
more ships than are currently in the inventory of all of the 
world's navies.
    Further complicating this challenge is the fact that these 
pirate vessels easily blend in with ordinary, legitimate 
shipping when they are not engaged in acts of piracy.
    Third, even when pirates are captured, as was noted 
previously, they are often not prosecuted and held accountable. 
Although piracy is a crime of universal jurisdiction, many 
States lack the appropriate domestic laws to prosecute pirates. 
Other States may have appropriate domestic legal frameworks, 
but lack the prosecutorial and judicial capacity to hold 
pirates accountable. And worse yet, other States simply lack 
the political will to take action.
    Finally, as the members of this subcommittee know, the 
Department of Defense has many other urgent priorities around 
the globe. In the Horn of Africa our existing and planned 
counterterrorism activities remain vital to confronting 
terrorism in the region. Many of the resources most in demand 
for counterpiracy activities, such as intelligence, 
surveillance, and reconnaissance assets, are the same assets 
that are urgently required elsewhere.
    These multidimensional challenges illustrate that there 
will be no simple solution to this problem. However, it is 
worth noting that, of the more than 33,000 vessels that transit 
the Gulf of Aden each year, less than one-half of 1 percent of 
these are attacked. And, fortunately, these attacks have 
succeeded only about a third of the time.
    In support of the National Security Council's action plan, 
DoD's primary role is to interrupt and terminate acts of 
piracy. We play a supporting role in preventing pirate attacks 
by reducing the vulnerability of the maritime domain, and 
facilitating the prosecution of suspected pirates.
    The United States is most actively engaged in counterpiracy 
operations through combined task force 151, a component of 
combined maritime forces, and one of 3 international 
counterpiracy coalitions made up of navies of more than 30 
nations--as was noted, NATO's operations, Ocean Shield, and the 
European Union's operation, Atalanta. Combined maritime forces 
also regularly host international coordination meetings in 
Bahrain to share information and deconflict counterpiracy 
efforts in the region.
    The Department of Defense is also working with the 
international contact group for piracy off the coast of Somalia 
on numerous initiatives related to industry, operations, public 
diplomacy, and legal issues. We are supporting the Departments 
of State and Treasury in efforts to make piracy less lucrative 
by going after the funding.
    We will continue to work with regional States to develop 
their capacity to patrol the seas and hold pirates accountable. 
We will also work, when possible, with local authorities in 
Somalia to address the on-shore components of piracy. Many of 
these efforts complement our development and counterterrorism 
goals in the region.
    While much remains to be done, we are seeing concrete 
results of these efforts. Since August 2008, international 
efforts have led to the destruction or confiscation of more 
than 100 pirate vessels, and the confiscation of numerous 
weapons, including small arms and rocket-propelled grenades. 
The international community has also turned over nearly 800 
pirates to various countries for prosecution.
    Countering piracy in the region must be a shared 
responsibility with the shipping industry, as was noted by my 
Coast Guard colleague. By following the best management 
practices, the majority of pirate attacks can be thwarted 
without any need for military intervention. These practices 
range from hardening the vessel to maintaining professional 
civilian armed services team on board, and can mean the 
difference between a successful and a failed pirate attack.
    I would also note that, in all cases where armed private 
security teams have been used, crews have successfully kept 
pirates from boarding their vessel. I am very pleased with the 
comment from my Coast Guard colleague, who stated today that 
industry's views on this question have been changing recently.
    Many have questioned whether there are connections between 
piracy and international terrorism. At the moment, the 
motivations of Somali pirates appear to be solely financial, 
rather than ideological. While I must caution about the extent 
of our intelligence and knowledge in Somalia and with the 
pirates is limited, at this point, as best as we can tell, we 
do not see operational or organizational alignment between al-
Shabaab or other terrorists and the pirates. But we do see 
interactions mostly of a coercive nature that benefit 
terrorists. We need to ensure that piracy does not evolve into 
a powerful funding source for violent extremist organizations.
    Finally, Mr. Chairman and members of the subcommittee, we 
recognize the problem of piracy is not just a problem for 
Somalia. In recent years, pirate activity has also occurred in 
west Africa, the Straits of Malacca, and elsewhere. Although 
the complete elimination of piracy is unlikely, we believe that 
we can and must reduce piracy attacks through deterrents, 
disruption, interdiction, and punishment. Doing so will require 
a coordinated effort amongst the U.S. Government, private 
industry, and our international partners. We are confident that 
progress can be made in that fashion.
    Thank you for the opportunity to testify, and I welcome 
your questions and comments.
    Mr. LoBiondo. Thank you.
    Mr. Amend?
    Mr. Amend. Mr. Chairman, distinguished members of the 
subcommittee, it is an honor to appear before you this morning 
to describe the Department of State's contributions to our 
government's efforts to combat piracy off the coast of Somalia, 
to answer any questions you might have, and to identify ways we 
might do better. And if I could ask that the written testimony 
I provided be included in the record of today's proceedings.
    Let me begin by saying that, since this committee met on 
the same subject in February of 2009, and notwithstanding an 
increase in international awareness of and efforts to deal with 
piracy, it seems as though the problem has only grown worse. 
The ruthless killing to which others have referred already this 
morning of four Americans on board the Quest on February 22nd 
underscores the increasing risks to recreational and commercial 
mariners in the region, and the pernicious effects of this kind 
of transnational crime.
    At Secretary Clinton's direction, we have begun an 
intensive internal review of our counterpiracy strategy, a 
process that will be finalized shortly. Throughout our strategy 
re-think, we will consult closely with Congress, as well as 
with a number of executive departments and agencies. Our goal 
is to develop a recalibrated strategy that, once implemented, 
will enhance the safety and security of Americans on the high 
seas.
    As we move forward, we will consider a range of actions. We 
will continue to collaborate with key international partners by 
discouraging the payment of ransoms, by stressing compliance by 
the shipping industry with self-protection best management 
practices, by encouraging the prosecution of suspected pirates 
in national courts, by soliciting contributions of military 
forces for counterpiracy operations, and by seeking financial 
contributions to the contact group's trust fund to defray the 
expenses associated with prosecution and incarceration of 
pirates.
    At the same time, we will follow a dual track, a diplomatic 
approach in Somalia, and examine appropriate counterpiracy 
assistance to stem piracy from Somalia's shores. We will work 
with port States in the shipping industry to help them develop 
and implement creative ways to protect their ships and their 
mariners. We will consider how best to support U.N. efforts to 
build judicial and incarceration capacity in the region, and to 
develop new options for regional incarceration to include a 
specialized prosecution mechanism in the region.
    Not least, we will consult closely with the Department of 
Defense, our colleagues at the Department of Defense, and in 
the intelligence community, to explore ways to disrupt and 
dismantle pirate operations, both at sea and on shore. And we 
will focus more intently on the life blood of piracy, the 
formal and informal financial flows that nurture and sustain 
this form of criminal behavior. We will coordinate closely with 
intelligence, financial, and law enforcement communities to 
identify and remove from operation pirate leaders, organizers, 
and financiers--the pirate kingpins, if you will.
    In doing all of this, we are mindful that the root cause of 
piracy has been, and will likely continue to be, State failure 
in Somalia. Until good governance, stability, and a modicum of 
economic development prevail on land, piracy at sea will remain 
a threat.
    Our focus will thus be on the kinds of near and medium-term 
actions that will increase significantly risks to the pirates, 
while reducing by equal measure any potential rewards that they 
think they may gain.
    This concludes my opening remarks, and I look forward to 
your questions.
    Mr. LoBiondo. Mr. Caldwell?
    Mr. Caldwell. Chairman LoBiondo, Ranking Member Larsen, 
other Members of the Committee, Mr. Landry, thank you very much 
for having GAO up here to testify on piracy. Allow me to 
introduce my colleague behind me, John Pendleton, who is from 
our defense team and worked with me jointly on this work.
    Before I proceed, I would also like to share my condolences 
with the victims of piracy.
    GAO's contribution to this discussion is our review of the 
NSC action plan, and the U.S. Government's progress against 
that. We show that progress in a so-called report card on page 
five of our statement. And, in addition to that, in our 
September report we also recommended that the action plan be 
revised.
    We recommended three specific revisions: first, to address 
changes in piracy operations and tactics; second, to start 
gathering information on the cost and effectiveness of 
counterpiracy operations; and then, finally, to clarify agency 
roles with the specific lines of actions that were in the 
action plan.
    Since September, when we issued that report, the piracy 
situation has continued to deteriorate, and I have some 
graphics that I would like to share with the committee, if 
possible. [Graphics shown.]
    The first graphic here shows the area of piracy off of 
Somalia. The dark rectangle you see is the internationally 
recommended transit corridor. The dotted line that you see off 
the coast is 1,000 miles out, an area where piracy is now 
occurring.
    The next chart shows a mileage comparison of the coast of 
Somalia to the coast of the eastern U.S., a distance stretching 
from Portland, Maine, to Miami, Florida.
    Next is a series of maps showing the expansion of piracy. 
First we have 2007, where the pirates focus their attacks 
relatively close to the coast of Somalia. Next is 2008, where 
the pirates focus their attacks on the heavily transited Gulf 
of Aden.
    Then, in 2009, the pirates continued attacks in the Gulf of 
Aden, but moved further off Somalia, as naval vessels began to 
patrol the transit corridor.
    Then, in 2010, you can see the pirates continue to attack 
further out, spreading both eastward and southward, aided 
somewhat by the use of hijacked mother ships.
    And finally, in 2011 here, so far pirates continue to 
attack further out, using mother ships, spreading northward 
toward the Straits of Hormuz, which is a key oil tanker route.
    Then, finally, we have a slide showing the totality of all 
the attacks over the last several years.
    Next is a bar chart showing the number of attacks from 2007 
to 2010, which shows that total attacks have stabilized or 
actually declined in the last 2 years, but the pirates' success 
rate is starting to rebound.
    And then this final graphic here shows the rapid increase 
in the number of seafarers that have been held hostage, 
particularly the growth between 2007 and 2008. And then, more 
recently, between 2009 and 2010.
    In our view, this deteriorating situation for piracy, 
again, calls for a more urgent need to revise the plan along 
the line of our recommendations. Based on our most recent 
communications with the NSC, they do plan to revisit and update 
the action plan along the lines that we have discussed. In 
addition, as indicated by Mr. Amend here, State Department 
plans to revisit some of its plans and efforts. Both of these 
are hopeful signs, but we recognize that revising plans by 
themselves will not end piracy. The U.S. will need to take 
additional steps, both long-term and short-term, and in 
conjunction with our allies and with industry, to mitigate 
piracy.
    In closing, thank you very much. I will be happy to respond 
to any questions.
    Mr. LoBiondo. Thank you. Mr. Larsen, you want to kick it 
off?
    Mr. Larsen. Thank you, Mr. Chairman. Mr. Caldwell, with 
regards to your charts and the numbers, in my statement I said 
it's sort of a mixed bag of success. It is sort of like 
fighting drugs sometimes in the U.S. If you crack down on meth, 
the price of meth goes up, because you start cutting off the 
supply, or you raise the cost of the transaction, as a result.
    And it seems that that argument could be used to explain 
the numbers that you are pointing out. We are out there, we are 
on the water, we are making it more difficult, so we are seeing 
more attacks, more hostages, we are seeing ransoms go up, the 
average ransom go up. Is that an accurate assessment?
    Mr. Caldwell. Yes. I think there is two things at play. One 
is that the Gulf of Aden and the transit corridor there is a 
fairly narrow area, much easier to patrol for naval vessels. 
And I think the pirate success rate started to decline in 2009, 
as those naval vessels moved into that area. That is also the 
year that the pirates started--I think maybe late 2009 they 
started to shift further out, through the use of mother ships, 
and things like that.
    In terms of the ransoms, certainly it has proven to be a 
profitable business model for the pirates. And as some of the 
other witnesses have said, until you start to get at the profit 
that is motivating this, I think it will be pretty hard to stop 
it.
    Mr. Larsen. Mr. Amend, with regards to the profit motive, 
and what the State Department is doing in conjunction with 
either Department of Justice or Department of Treasury to get 
at the financiers of piracy--because these folks in the skiffs 
are, you know, they are the frontline folks, but they are not 
driving piracy, it seems. It seems the financiers are driving 
piracy.
    What are we doing about identifying who these people are 
with the big money to cut them off?
    Mr. Amend. Thank you, that is an excellent question. What 
we are doing through the multilateral diplomatic effort, the 
contact group, 60-nation-member contact group, we are working 
to establish a fifth working group that will focus solely on 
financial flows, and to pull together the Departments of 
Treasury, the intelligence community, and Justice, and our 
international partners to share information, but then to 
attempt to identify the informal and financial--informal and 
formal financial flows, and to----
    Mr. Larsen. Can I ask a question about that? Because you 
established the contact group in 2009. You had four working 
groups.
    Mr. Amend. That is right.
    Mr. Larsen. And now you are only getting--now you are 
telling me now you are only getting to this fifth group to look 
at financial flows. Why was that not established in 2009, with 
the other 4 working groups?
    Mr. Amend. The initial establishment was four working 
groups to focus on naval operations, best management practices, 
public diplomacy efforts, and then the kind of legal mechanisms 
that we want countries to embrace to allow them to prosecute. 
And only recently have we focused on the financial aspect. But 
I think this is a good sign. We--State Department hosted, on 
March 1st, an ad hoc meeting. A number of nations attended, and 
have pledged their interest in taking this a step further.
    Mr. Larsen. I think it is a good sign, too. Has there been 
a reluctance over the last 2 years from the Department of 
Treasury to be involved in this?
    Mr. Amend. No, I would not say that. I think only now as 
pirates have pivoted and proved to be very adept and shift 
their tactics, I think we have recognized that we need to shift 
tactics, and to look at other ways to attack the more senior 
leaders in the structure, in the networks themselves, that are 
behind this.
    Mr. Larsen. I may come back to this in a second round. But, 
Admiral Cook, with regards to the shift in the international 
shipping community's view on private armed security guards, can 
you talk about--can you tell us when that might be a ratified 
decision, and we can start seeing that implemented?
    Admiral Cook. Congressman, I will tell you the way it is 
right now. The U.S. stepped out in this regard, and actually, 
we were criticized internationally for doing that.
    And then, as the piracy issue continues to evolve--and then 
I would say that the Quest was a punctuation point for several 
of the countries thinking about this--and it just happened to 
occur a week or so ahead of the last contact group meeting that 
I co-chaired, where this sentiment was finally expressed. We 
put it on the agenda to drive it, but in other meetings we 
weren't able to get the countries to reciprocate and look at 
this.
    So, they are at the stage now, I would say, if I could put 
a pulse on the international community, where they are 
accepting the reality that this is what needs to be done. But 
there are complications with countries' national legislation 
for flag states, such as Germany. Germany prohibits the use of 
arms on their ships. And we have had several ship owners that 
have reflagged their ships to other flags.
    So, I would say it will not be a seamless incorporation. 
The contact group does not have standing--like the IMO does, 
under the U.N. It is termed an ad hoc group, although you can 
tell by the representation it is quite robust.
    And so I would say by September we will have the framework 
available, and then the countries will be able to either adopt 
it or adapt it. But while this is going on, I can tell you that 
there is an increase in the number of private security teams 
from different flag state authorizations, and some shipping 
companies who maybe reluctantly are doing this without true 
flag state concurrence.
    Mr. Larsen. Thank you. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Harris, do you have questions?
    Dr. Harris. No.
    Mr. LoBiondo. Admiral Cook, most of the cost to combat and 
deter piracy is being borne by the United States and maybe a 
few other countries who have some capacity or will to deal with 
this. I think, meanwhile, flag-of-convenience nations, which 
register most of the ships that are coming under attack, do not 
seem to be providing much, if any, contributions in the anti-
piracy effort.
    Has consideration been given to try to talk to them, force 
them, develop a means to require flag-of-convenience states to 
pay their fair share for the cost of naval and military 
operations to pursue the pirate ships?
    Admiral Cook. Mr. Chairman, I certainly do not want to 
deflect the question. I think that--more appropriately, I think 
that would be under the defense moniker where, you know, the 
navies are working together under a combined task force, and 
also drawing in whatever other support that they can.
    The Coast Guard has not approached those flags to 
specifically pay for naval protection. What we have done is, 
though, continued to press for those flag states to pressure 
their ship owners to provide long-range information and 
tracking, LRIT, information to the Maritime Safety Center Horn 
of Africa, which is the EU body which tracks ships through the 
high-risk waters, so that we actually have a better 
understanding of the picture, and naval vessels can do a better 
distribution of their resources. But as far as directly asking 
them to do something momentarily, that has not been done, sir.
    Mr. LoBiondo. For the State Department, Mr. Amend, would 
you want to take a stab at that last question? I mean is this 
something the State Department is looking at, at all?
    Mr. Amend. Yes, it is. This is one option among the range 
of options that we are considering. And, again, there are a 
number of aspects to it, host governments that are less 
enthusiastic about it, but will continue to look at, yes.
    Mr. LoBiondo. For Mr. Wechsler, as compared with other flag 
states there are relatively few number of U.S. flag vessels 
that are transiting the waters in the Horn of Africa. Is the 
Department of Defense currently tracking the movements of 
suspected pirates--are you able to do that at all--that are 
based at sea?
    Mr. Wechsler. We are able to do that in part, and our 
limitations are a result of just the sheer size of the area at 
sea that we are dealing with. Where we know of the pirates, 
where we do have information of the pirates, we are able to 
move rapidly and take appropriate action, as we have most 
recently, as have some of our partner nations.
    South Koreans, the Indians have recently taken quite 
powerful action. And it should be noted that the Pakistanis 
currently lead 151. So there are a number of countries that do 
take action. And we take action when we are close to a U.S. 
flag vessel that is attacked by pirates. And we have also taken 
action when it is not a U.S. flag vessel, but we are the 
closest, and we are abiding by our responsibilities under the 
law of the sea.
    Mr. LoBiondo. Are you able to supply, on a timely basis, 
intelligence information to U.S. flag vessels when you are 
coming on it?
    Mr. Wechsler. Yes, there are procedures, and it all depends 
on the specific circumstances of the vessel that is in the 
process of being attacked, or has been attacked. When we have a 
mechanism to communicate directly with the people on the ship, 
we most certainly do so.
    The ability for us to do so will have a lot to do with 
whether or not the ship is abiding by all the best practices 
that have been established, whether they have a safe room, 
whether that room has communications, whether they were able to 
get there, whether they were able to delay the pirates from 
taking their ship, from a variety of the evasive actions that 
they were--that they should be taking.
    Mr. LoBiondo. Mr. Amend, I wanted to come back to part of 
your statement, where you said we have not gotten to any of 
these folks on shore, on land-based. I mean it seems that with 
the vast area that was outlined at sea, that getting to some of 
these bad actors on land is the way to go.
    I mean is there anything you can--we might be getting into 
an area we cannot talk about here, but since you mentioned it 
during your statement, I mean, it is an obvious area we need to 
get to. How does this----
    Mr. Amend. Right. And here I think I need to be mindful of 
the views of my colleague and those of the Department of 
Defense on the various--the range of options that are out 
there.
    There are certainly--there are diplomatic concerns with 
the--any action that might bring the fight on shore, because of 
the potential blowback to--and the way that we would exacerbate 
an already difficult situation on land where there has been no 
functioning government in Somalia for 20 years now, where we 
are concerned about a range of issues, humanitarian, economic 
development, and other issues.
    But I really cannot--I think probably in this forum, that 
is probably as much as I can say.
    Mr. LoBiondo. I understand that, and I will maybe switch 
gears with one of my other committees at another time, the 
intelligence committee, where we can take this up.
    But I just say collectively, out of frustration, so what 
about if a commercial vessel was boarded and taken? And what if 
it had a crew of 30? And what if they were all slaughtered?
    And what about if--you know, go through these--I mean what 
will it take for us to finally say, ``We are not going to try 
to hold hands and serve warm milk and cookies and figure out 
how to solve this problem,'' because at a certain point there 
has got to be a breaking point for the US of A to say, ``We 
have had enough, and if we are not going to get cooperation 
from other nations''--I am not talking about putting troops on 
the ground there or anything else. We have all kinds of other 
means.
    Mr. Amend. Mr. Chairman, I would say that we are at that 
point. I think the February 22nd tragedy has galvanized 
Secretary Clinton and those of us at the State Department to 
take a really hard and cold look at the range of options that 
are before us. So I think that we are in that process. We are 
looking at what is out there, and what could be done.
    Mr. LoBiondo. On--switching gears a little bit, still for 
you, the Executive Order 13536 names 11 individuals, 2 of whom 
are known to be head of pirate gangs. It effectively outlaws 
cooperation with these individuals, or support of their 
activities. The maritime community is very concerned that the 
prohibition on providing material support will make ransom 
payments liable for prosecution.
    Will the industry be held liable for ransom payments they 
made in the past, if they are later found to have ended up in 
the hands of one of the 11 individuals listed in the Executive 
order?
    Mr. Amend. Mr. Chairman, I do not think there is a clear 
answer to that. I don't know that that--we would know, until 
that has been tested. And I will go back to the Department and 
try to develop a fuller written response to that question. But 
I do not know.
    Mr. LoBiondo. And are you or someone in the Department 
actively trying--attempting to track ransom payments?
    Mr. Amend. Well, I think that is part of the effort that I 
described earlier, in response to Congressman Larsen's 
question. Working with Treasury, and the intel community, and 
Justice, and others, we are trying to do that, trying to do a 
much better job of that now.
    Mr. LoBiondo. Thank you. Mr. Caldwell, you mentioned in 
your statement that growing ransom proceeds may undermine 
regional security and contribute to other threats, including 
terrorism. Are there any indications that terrorist 
organizations are using piracy as a source of revenue?
    Mr. Caldwell. Mr. LoBiondo, we at GAO do not have 
independent intelligence capabilities. And the word we are 
getting from the DoD and the intelligence community is that 
there is no clear nexus now between piracy and terrorism.
    But even as Mr. Wechsler said, in the work he has done with 
DoD and drug interdiction, these different forces feed on each 
other for instability, whether it is greed or political 
ideology, and sometimes these groups start cooperating, or 
change their motivation.
    So, it is certainly a concern. I think we know the long-
term solution to Somalia is governance on land. And when you 
have these organizations, whether they are terrorist or whether 
they are pirate and criminal, their interest is to prevent and 
undermine such governance.
    Mr. LoBiondo. Mr. Larsen--Mr. Landry, do you now have a 
question?
    Mr. Landry. Yes, sir.
    Mr. LoBiondo. You exited for a moment there,
    Mr. Landry. Yes, sir.
    Mr. LoBiondo. OK.
    Mr. Landry. I just have a few questions for the admiral.
    Does the Coast Guard have the authority to deploy maritime 
safety and security teams internationally to deter piracy?
    Admiral Cook. Could you repeat the question for me, please, 
Congressman?
    Mr. Landry. Does the Coast Guard have the authority to 
deploy maritime safety and security teams internationally to 
deter piracy?
    Admiral Cook. Well, we have the authority, but we respond 
to the combatant commanders under Department of Defense. So, 
unless we were doing a law enforcement action independent from 
a Coast Guard cutter, we reserve our resources to be deployed 
with the Department of Defense, under their combatant 
commander's direction.
    Mr. Landry. Could you deploy those members aboard U.S. flag 
merchant vessels?
    Admiral Cook. That could be done, although it is a 
significant resource issue, and I think that has been discussed 
in several other forums, that we do not have the capacity to 
meet the needs of U.S. flag merchant ships with armed teams 
from the Coast Guard.
    Mr. Landry. OK. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Cravaack, do you have any questions?
    Mr. Cravaack. Yes, Mr. Chairman, I do. Good morning. Thank 
you all for coming today. Admiral, thank you for the great work 
all your Coast Guard people do for us on a daily basis that we 
know nothing about. And thank you for all the men and women of 
the great Coast Guard.
    I do have a couple of questions. I do apologize for getting 
in late. I was at another committee meeting. And I do have a 
question for Director Caldwell.
    I am a little concerned about some of the possibilities--
and I have read conflicting information, so I really do not--I 
am looking for your guidance here on some of the money that 
might be transferred from piracy to, like, al-Shabaab in the 
African region. Could you comment a little bit more about that, 
fill me in a little--what you are seeing and what you are 
hearing?
    Mr. Caldwell. We do not have any intelligence information, 
Mr. Cravaack, that is independent from the executive branch. 
And the official story is that there is not a clear nexus 
between al-Shabaab and the pirates.
    But there certainly is a concern that that cooperation 
could grow. Both of them are involved in illicit activities, 
and if, under certain circumstances it becomes in their 
interest to cooperate, to undermine any type of governance, in 
Somalia, that it could occur, sir.
    Mr. Cravaack. Thank you, sir, for that. Do you have any 
idea if there is any foreign terrorist organizations that are 
funding these operations? They have to get their money from 
somewhere, because I understand they do have some pretty heavy 
weapons.
    Mr. Caldwell. I am probably not the expert on that, but the 
pirates are getting the money from the ransoms. So they do not 
need independent funding. The pirates have got a very clear 
source of funds, and it is through the shippers, or whoever is 
paying the ransom, the insurers, through kidnap and ransom 
insurance. And the business model that they have, at this 
point, does not require any additional money coming in from 
other sources.
    Mr. Cravaack. OK. Thank you, sir. Is there anybody else on 
the panel who can comment on this regarding terrorist 
organizations versus the pirates that are off the coast, as of 
right now?
    Mr. Wechsler. Sir, what I would say is, first, with an 
important caveat about the limits of our intelligence and 
information on this question. And then, secondly, what I would 
say is that, to the best of our knowledge right now, we do not 
see them--those two entities, the terrorists and the pirates--
being operationally or organizationally aligned.
    We do, from time to time, see a relationship of coercion, 
which ends up with money from pirates potentially going to 
terrorist organizations. That is the best that we have at the 
moment.
    Mr. Cravaack. So there may be a window of opportunity 
there. OK. Thank you very much, gentlemen. I appreciate your 
testimony today. I yield back, sir.
    Mr. LoBiondo. OK. Mr. Harris, do you have anything?
    Dr. Harris. Just one brief question, Mr. Chairman. Again, 
thanks to the panel for coming to testify.
    As I read over, Mr. Amend, your testimony, on the bottom of 
page seven it talks basically about how we are going to try to 
deal with this through diplomatic terms. And it says, ``We are 
examining appropriate counterpiracy assistance, enhancing youth 
employment programs.''
    Now, I have got to tell you, I mean, it kind of rings--you 
know, sounds like midnight basketball or something. I mean tell 
me that the United States is not depending on youth employment 
programs to stop the slaughter of--that occurred aboard the 
Quest. Tell me that. Assure me that we are not depending upon 
enhancing youth employment programs in a country where there is 
not even a real government.
    Mr. Amend. Congressman Harris, we are not depending, I am 
here to tell you that.
    Dr. Harris. Thank you very much. I hope the next time you 
come to us, you make it a little clearer in here that that is--
you know, that is one of the things we are counting on. Thank 
you. Yield back the time.
    Mr. LoBiondo. Mr. Larsen?
    Mr. Larsen. Mr. Amend, in the Coast Guard authorization 
bill we provided protection for U.S. citizens in U.S. courts 
for actions taken to defend against piracy. However, U.S. ships 
call at numerous foreign ports, as you know. And there is a 
potential that an action could be brought in a foreign court 
for acts on the high seas that were legally justified under 
U.S. law.
    So, can you answer for me, would the U.S. defend U.S. 
citizens against charges in a foreign court?
    Mr. Amend. Absolutely. I think we would vigorously attempt 
to seek that they would not be held liable for any act that 
would be taken in self-defense. Absolutely.
    Mr. Larsen. And how would that be accomplished?
    Mr. Amend. Well, through diplomatic means. I think we would 
put pressure on the host government not to pursue that kind of 
an action.
    Mr. Larsen. So U.S. citizens defending themselves against 
piracy on the high seas can rely upon U.S. Government to defend 
them?
    Mr. Amend. I think we would step forward and try to defend 
them.
    Mr. Larsen. Thanks. I have a question about the cost of 
addressing piracy, Mr. Caldwell. You noted that there--that we 
do not really know what we spend, what we have been spending on 
combating piracy, and that was in your September 24, 2010, 
report. Do you have any update on that question?
    Mr. Caldwell. We do not. The indication we had from the NSC 
is that that is one of the things they will consider as they 
revise their action plan.
    I do want to give the Department of Defense credit, because 
they were one of the departments that at least tried to come up 
with an estimate for us, based on steaming days of ships, and 
things like that.
    If I could, I will take this opportunity to add one other 
thing, in terms of the armed security teams on ships. That is a 
very efficient way to do things, because instead of having 
billion-dollar naval ships moving around pursuing pirates, you 
have got relatively small teams on merchant ships. And I wanted 
to point out something from an industry perspective, because I 
do deal with the industry quite a bit.
    Some of the industry's initial concerns were that these 
armed security teams would lead to escalating violence, and I 
think, actually, the opposite has occurred. It is the 
escalating violence that has led to the increased use of these 
armed security teams. And a lot of the countries that initially 
opposed such teams, are now more actively supporting them, 
particularly countries--say the Philippines or Korea, where 
some of their seafarers have been killed.
    Mr. Larsen. About 30 percent of the seafarers are actually 
Filipino. Is that about right?
    Mr. Caldwell. Yes, they have a very high percentage. But a 
lot of those are working on cruise ships, which generally are 
not going through the pirate waters.
    One other thing about the flag states, and Mr. LoBiondo's 
comments about their contribution. Some of the flag states 
recognize they do not have navies, so they are not going to be 
able to contribute naval forces. But they seem to be the 
countries that are more amenable to allowing armed security 
teams on board.
    Mr. Larsen. Right. With regard to marine insurance, the 
general--my statement and from other sources said that, 
according to a Chatham House report, insurance rates, at least 
through the London insurers, has increased. But your report 
specifically says that rates in the United States have not 
increased. Can you explain the difference there?
    Mr. Caldwell. No, sorry. I am not quite sure.
    Mr. Larsen. Thank you.
    [Laughter.]
    Mr. Caldwell. That is the simple answer. There is other 
insurance, such as K&R insurance, which is not mentioned in a 
lot of the documents. Kidnapping and Ransom insurance is taken 
under a confidential agreement. So there is no public 
information on those rates and whether they are increasing. 
That is probably one source of these ransoms that are being 
paid.
    Mr. Larsen. OK. Can you get back to us with any other 
information about that?
    Mr. Caldwell. We can take that for the record.
    Mr. Larsen. Would you do that, please?
    Mr. Caldwell. We can come up with an explanation. Yes, sir.
    Mr. Larsen. Thank you very much. Admiral Cook, can you talk 
about the difference between the vessels' security plans that 
were established under the MTSA versus what are commonly known 
as the best management practices, and the extent that there are 
differences that were required of U.S. flag ships versus what 
the BMPs are being implemented on foreign flag ships, and how 
wide that difference is? And if it is too wide, how can we 
close it?
    Admiral Cook. Congressman, fundamentally, they are quite 
similar. Ultimately, though, in the BMPs, the best management 
practices, it makes a recommendation against the use of armed 
security teams. So that is a fundamental difference, right 
there. But basically----
    Mr. Larsen. So, in other words, in the vessel safety plans 
it says what compared to--on that issue--compared to BMPs?
    Admiral Cook. It says that because the owner is required to 
do the risk assessment based on the type of vessel and the area 
that it will be going--for example, the thing that is--really 
works against a ship is a low freeboard and a slow speed.
    Mr. Larsen. Right.
    Admiral Cook. You know, they are obviously a target for 
piracy. So, in that case, the owner has a higher threshold to 
identify what mitigation procedures they would need, and that 
would--they would allow--we would allow them to use armed 
teams. Not arm the crew, but armed teams, so that the crew can 
remain focused on navigation and running the engine room.
    So--but generally, though, in concept, both of them target 
ways to prevent unwelcome entry by anyone, you know, pirates, 
of course, in particular. They highlight opportunities for non-
lethal--talks about ship operations to evade pirates: increase 
your speed, in some cases you might alternate courses, so that 
it is more difficult to track the ship.
    Communication procedures need to be discussed within the 
ship's crew and externally. For example, the ships have ship 
security alert systems, which are kind of those buttons like 
you picture in a bank, where a silent alarm goes off. In, for 
example, U.S. flag ships, the alarm goes off in our Coast Guard 
Atlantic area command center in Virginia, which enables us to 
then directly contact the ship--we do not contact the ship--the 
ship security officer back in the office, and see if their ship 
is located where the beacon is saying, and whether they might 
be involved in activities where they would be subject to 
piracy.
    And then, measures to protect the crew. For example, you 
have heard the term ``citadel,'' which would be a hardened room 
somewhere inside the ship where the crew could then retreat. 
And it also requires some type of drills and exercise regime, 
so that the crew is well practiced into the communications, or 
the entry into the citadel, and those kind of things that would 
ultimately protect them in the final measure.
    So they are very similar, but they very much depart on the 
armed guard part.
    Mr. Larsen. OK. I have further questions, but I will----
    Mr. LoBiondo. Admiral Cook, with the Coast Guard 
authorization bill last year we got some language about 
liability relief for owners and operators. And the Coast Guard 
is establishing standards for use of force for self-defense of 
vessels. Can you give us any idea when those standards will be 
published.
    Admiral Cook. Yes, Congressman. We went ahead and leveraged 
a document called a port security advisory that we already had 
in place, because there was a need from our U.S. flag shippers 
to know where their limits were, as far as use of force.
    And so, that document has been out for over a year. So when 
we saw the authorization act, we said this is an opportunity to 
test that port security advisory against the language for the 
authorization act, and publish it in the Federal Register with 
the language from the authorization act surrounding it, and ask 
for comments. The comment period closed on March 1st. The 
industry is generally very supportive of the language, and it 
walks through items such as use of force, use of deadly force, 
a variety of things that you would need to have on your mind 
like who is in charge--the master is always in charge--those 
types of things which are drawn out, which give them the 
framework, then, to do self-defense, and know that they will 
not be held civilly liable.
    So, we are expecting that that can be turned around here as 
we work in a couple of comments. Very soon we will be passing 
it over to the Department as soon as we can.
    Mr. LoBiondo. Mr. Landry, do you have anything else?
    Mr. Landry. No, sir, Mr. Chairman. Thank you.
    Mr. LoBiondo. Mr. Larsen?
    Mr. Larsen. Thank you. Thank you, Mr. Chairman. Mr. Amend, 
with regards to the potential of sanctions against known piracy 
financiers, is that something that is in the State Department 
toolbox, and something the State Department is willing to do, 
to sanction individuals?
    Mr. Amend. Yes, I think. Again, our review is not yet 
complete. I do not want to get too far ahead. But I cannot say 
at this point. The review process is not yet complete, and so I 
would not want to get cross-wise with our senior leadership.
    Mr. Larsen. OK. But--and this is the review you mentioned 
in your testimony? Sort of--you did--the contact group was set 
up in 2009.
    Mr. Amend. Right.
    Mr. Larsen. You have done 2 years of work on that, there 
has been some success, there has been some challenges, and now 
you are looking at all this again, and part of what you are 
looking at in the future is whether or not you can identify, 
and second, when you--if you can identify, whether you should 
or you should not apply, or try to sanction----
    Mr. Amend. Well, and----
    Mr. Larsen [continuing]. Piracy financiers.
    Mr. Amend. To think creatively about a number of options, 
to include what you just mentioned, and to see how they could 
be sequenced in a way that would allow us to achieve a near and 
medium-term success.
    Mr. Larsen. Yes, OK. So on March 21st, there is a plenary 
session of the contact group bringing together the work----
    Mr. Amend. Right.
    Mr. Larsen [continuing]. Of the working groups, where 
presumably, there will be discussion and--on the 
recommendations that come out of the working groups.
    Is there anything that you all will be discussing that you 
might find helpful, getting support from this committee, this 
subcommittee, on?
    Mr. Amend. No. I appreciate that offer. I think our focus, 
in large part, will be to pull together the thinking on 
proposals made by the U.N. about new judicial mechanisms in the 
region that might be more effective, to focus on the subject of 
financial flows, informal and formal financial flows. But let 
me take that question back and share that with my colleagues 
and respond in writing.
    Mr. Larsen. I would--well, you have got a very short period 
of time to do that.
    Mr. Amend. It is very--it is a narrow window.
    Mr. Larsen. Absolutely.
    Mr. Amend. But we can move quickly.
    Mr. Larsen. I look forward to your quick response.
    Mr. Amend. Yes.
    Mr. Larsen. And I hope that is interagency, you are talking 
to an interagency group about that.
    Mr. Amend. Yes, absolutely.
    Mr. Larsen. With regards to prosecution, it might have been 
Mr. Wechsler who noted that there have been 800--for the sake 
of the law, 800 alleged pirates turned over for prosecution. 
How many have actually been prosecuted or awaiting prosecution? 
Because my understanding is that number is not very high.
    Mr. Amend. I defer to information that is provided by the 
U.N., office on drugs and crime. It describes countries 
regionally and then internationally, currently detained and 
those that have been prosecuted.
    And I think your observation is accurate, that a few 
numbers have been prosecuted, significant numbers have been 
detained. Or up to 800, I think, is the round figure that we 
see.
    Mr. Larsen. So up to 800 are current in detention?
    Mr. Amend. Yes, and let me just give you an example. In the 
region, Somaliland, 88 all have been convicted; Puntland, 260, 
of which 200 have been convicted; Yemen, 120, all convicted; 
Oman, 12, all convicted. More broadly, Netherlands, 10, 5 of 
which have been convicted, and on down the list.
    Mr. Larsen. And what do you find the challenge to 
prosecution being?
    Mr. Amend. The key challenge is, as I think was mentioned 
earlier, piracy is a crime of universal jurisdiction. And we 
seek diplomatically to get countries to take on national 
prosecutions, to prosecute--to accept--take receipt of and then 
prosecute under their national laws, pirates. That is 
difficult. And a number of countries have stepped forward. 
Kenya, for example, I think has taken up to around 100 now.
    But it is an ongoing effort. It is an ongoing challenge to 
get countries to do this. Some are reluctant.
    Mr. Larsen. You have all noted, as the chairman has noted 
and I have as well, that--the tragedy of the Quest, the sailing 
vessel Quest. Do you--any of you--have an assessment on whether 
this has changed the rules of engagement for the pirates, if 
they can be looked at monolithically?
    [No response.]
    Mr. Larsen. I know it is a rather open-ended--but I would 
rather--if someone can volunteer----
    Mr. Wechsler. It is--with the caveat that this is an 
ongoing investigation, and so we are still learning a lot about 
what the individual motivations were of those specific 
pirates--but as a general proposition, our initial assessment 
is that this was in individual circumstances, and does not 
necessarily indicate a wide-ranging change of behavior, talking 
about this specific incident.
    That said, the wider trends, we do have concerns about the 
use of force by pirates more widely.
    Mr. Larsen. Yes, yes.
    Mr. LoBiondo. Mr. Amend, the U.S., for a while, had a 
bilateral prosecution agreement with Kenya. And I guess we 
transferred, what was it, 25 or so pirates to Kenya. Kenya 
formally withdrew September of 2010. Do we know why they 
withdrew from the agreement?
    Mr. Amend. My understanding is that they said that they had 
reached capacity. But since the suspension of that agreement, 
on a case-by-case basis, the Kenyans have accepted suspected 
pirates. And so we continue to work closely with the government 
there, notwithstanding the fact that we had an agreement that 
has been suspended, to, on a case-by-case basis, to seek their 
support in accepting new suspected pirates as incidents occur.
    Mr. LoBiondo. Has Kenya released pirates without 
prosecuting?
    Mr. Amend. That I do not know, but I can get an answer back 
to you.
    Mr. LoBiondo. So would you also be able to comment whether 
their withdrawal from the bilateral prosecution agreement has 
hindered prosecution efforts?
    Mr. Amend. Well, I think, as a general principle, we would 
like countries to accept pirates--affected states to accept 
pirates and prosecute them. And so we certainly were 
disappointed. But we continue to work closely with the Kenyan 
Government so that they will make the right decision.
    Mr. LoBiondo. And I am assuming we are--State Department is 
attempting to prevent other nations from just sort of catch-
and-release programs, so to speak?
    Mr. Amend. That is right. That is right.
    Mr. LoBiondo. OK. Thank you. Mr. Larsen, do you have more 
questions?
    Mr. Larsen. Mr. Wechsler, we have heard testimony from you 
and the others about the expansion of the area that the pirates 
have gotten into, about the size of the lower 48 States. We 
have heard from you that if you took all the ships in the 
navies around the world, that number would not be enough to 
patrol this area adequately.
    So, without, obviously, getting into too much operational 
detail for obvious reasons, what kind of options do we have, 
beyond what we are doing on the water, for degrading their 
capacity to operate in such a large area?
    Mr. Wechsler. In addition to gaining better intelligence, 
which is always a preferred way to attack such problems on the 
sea--if you are cued by intelligence, it makes your work much, 
much better than if you are going around, hoping to come across 
a pirate, which we try not to do.
    But in addition to that, I would go back to the first order 
of statements that I and a bunch of my colleagues here have 
made, which is to make the ships--the vessels themselves much 
harder targets for the pirates. There is a significant number 
of steps that can be done to make these targets harder. And we 
have seen the success to date when targets have been made 
harder, that pirates cannot take them, will not take them, try 
and fail to take them.
    And those steps, as compared to having a lot of naval 
vessels, is a much more cost-effective way to address this 
problem on the sea.
    That all said, as you have said, and as we have said, the 
true solution to this problem is going to be on land, not on 
sea.
    Mr. Larsen. With regards to issues within your area, on the 
intelligence side, as the State Department goes to phase two, 
or whatever you are calling it, looking at this, rethinking, 
will you be advocating, from a defense side, Defense 
Department, will you be advocating for more access to the use 
of intelligence assets in order to help with this problem?
    Mr. Wechsler. Yes, there is a lengthy and comprehensive 
process for the global employment of forces and for other 
intelligence-related processes to deploy and prioritize those 
assets. We make sure that the effort against piracy is included 
in that process, so that it can be ranked.
    I do have to say, though, sir, as I said in my testimony, 
when we are fighting a war in Afghanistan, and when ISR assets 
are in great demand in that war, that will understandably be 
our highest priority. And we are short of ISR assets, compared 
to demand, quite significantly. And that is the unfortunate 
situation in the Department of Defense.
    Mr. Larsen. And there is no doubt about that, and there is 
no doubt we have heard that from Secretary Gates many times, as 
well.
    I think, Mr. Chairman, that is--those are my questions.
    Mr. LoBiondo. OK. I think that will wrap us up. I would 
like to thank our panel very much. I do not imagine this will 
be the last we will be dealing with this. We look forward to 
some updates from you. And I thank you for being here. The 
committee is adjourned.
    [Whereupon, at 11:14 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
